   DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                        Washington, D.C. 20201




August 17, 2010

TO:            Mary K. Wakefield, Ph.D., R.N.
               Administrator
               Health Resources and Services Administration


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Results of Limited Scope Review of Peak Vista Community Health Centers
               (A-07-10-02754)


The attached final report provides the results of our limited scope review of Peak Vista
Community Health Centers. This review is part of an ongoing series of reviews performed by
the Office of Inspector General (OIG) to provide oversight of funds provided by the American
Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act).

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the OIG post its publicly
available reports on the OIG Web site. Accordingly, the final report will be posted at
http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to
contact me at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to
report number A-07-10-02754 in all correspondence.


Attachment
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




        RESULTS OF
  LIMITED SCOPE REVIEW OF
   PEAK VISTA COMMUNITY
      HEALTH CENTERS




                      Daniel R. Levinson
                       Inspector General

                         August 2010
                        A-07-10-02754
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Health Centers Consolidation Act of 1996 (P.L. No. 104–299) consolidated the Health
Center Program under Section 330 of the Public Health Service Act (PHS Act), codified at 42
U.S.C. § 254(b). Pursuant to 42 U.S.C. § 254(b), the Health Center Program is a national
program designed to provide comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health & Human Services, the Health Resources and Services
Administration (HRSA) administers the Health Center Program. The HRSA health centers are
community-based and patient-directed organizations that serve populations with limited access to
health care.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, including $2 billion to expand the
Health Center Program to serve more patients, stimulate new jobs, and meet the significant
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. These appropriations included $500 million for grants to health
centers, $1.5 billion for health center construction, renovation, and equipment and for the
acquisition of health information technology systems, and $500 million to address health
professions workforce shortages. HRSA made available four types of Recovery Act grants to
health centers: new access points (NAP), increased demand for services (IDS), facilities
investment program, and capital improvement program (CIP). Recovery Act grants were
provided to both new and existing health centers; moreover, a center was permitted to receive
more than one type of grant.

Peak Vista Community Health Centers (Peak Vista) has provided health care to families in El
Paso and Teller counties, Colorado, since 1971. On December 18, 2007, Peak Vista applied for
Recovery Act NAP grant funding in the amount of $1,300,000. According to Peak Vista’s NAP
grant application, the funding would be used to create a Mobile Family Care Clinic that would
enable Peak Vista to serve 4,000 new patients. On February 26, 2009, HRSA awarded Peak
Vista a Recovery Act NAP grant in the amount of $1,300,000.

On March 16, 2009, Peak Vista applied for Recovery Act IDS grant funding in the amount of
$776,173 to hire ten full-time employees. According to Peak Vista’s IDS grant application, the
funding would enable Peak Vista to serve 371 new uninsured patients. On March 27, 2009, Peak
Vista was awarded a Recovery Act IDS grant in the amount of $776,173.

On June 2, 2009, Peak Vista applied for Recovery Act CIP grant funding in the amount of
$1,880,475. According to Peak Vista’s CIP grant application, the funding would enable Peak
Vista to (1) repair the Family Health Center roof and parking; (2) upgrade information
technology infrastructure and computer equipment and improve electronic health care records
capacity; and (3) renovate the Administrative Center, which would allow some administrative
staff to be moved to a new location. On June 25, 2009, Peak Vista was awarded a three-project
Recovery Act CIP grant in the amount of $1,880,475.
                                               i
OBJECTIVE

Our objective was to assess Peak Vista’s financial viability, capacity to manage and account for
Federal funds, and capability to operate a community health center in accordance with Federal
regulations.

RESULTS OF REVIEW

Based on our assessment, we believe Peak Vista is financially viable, has the capacity to manage
and account for Federal funds, and is capable of operating its health center in accordance with
Federal regulations. However, we identified several weaknesses in Peak Vista’s financial
management: NAP funds used for services at unauthorized service sites; funds draw-downs not
matching financial system information; payroll costs based on estimates; inadequate segregation
of Recovery Act funds in the accounting system; lack of required supporting documentation for
salaries; lack of existing formal policies and procedures; and lack of required personnel data.

RECOMMENDATION

When monitoring the Recovery Act funds, we recommend that HRSA consider the information
presented in this report in assessing Peak Vista’s ability to account for and manage Federal funds
and to operate a community health center in accordance with Federal regulations.

AUDITEE COMMENTS

In written comments on our draft report, Peak Vista disagreed with the majority of our findings.
Peak Vista provided information as to corrective actions and improvements that it has
implemented or is undertaking, as well as additional information related to some of our findings.

Peak Vista’s comments, excluding a two-page attachment that contained a copy of one of the
HRSA grant awards, appear as the appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

Peak Vista’s written comments provided additional information as to corrective actions and
improvements that it has implemented or is undertaking, but we did not verify the validity of the
additional information provided. Accordingly, we continue to recommend that HRSA consider
the information presented in this report, including Peak Vista’s comments, in monitoring the
Recovery Act funds.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              The Health Center Program .................................................................................1
              Peak Vista Community Health Centers ...............................................................1
              Requirements for Federal Grantees .....................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................3
               Objective ..............................................................................................................3
               Scope ....................................................................................................................3
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATION...............................................................................4

          WEAKNESSES IN FINANCIAL MANAGEMENT .....................................................4
              New Access Point Funds Used For Services at Unauthorized Service Sites .......4
              Recovery Act Funds Draw-Downs Not Matching Financial
                 System Information.........................................................................................5
              Payroll Costs Based On Estimates .......................................................................5
              Inadequate Segregation of Recovery Act Funds in the Accounting System .......6
              Lack of Required Supporting Documentation for Salaries ..................................6
              Lack of Existing Formal Policies and Procedures ...............................................6
              Lack of Required Personnel Data ........................................................................7

          RECOMMENDATION ...................................................................................................7

          AUDITEE COMMENTS……………………………………………………………….7

          OFFICE OF INSPECTOR GENERAL RESPONSE………………………………......8

APPENDIX

          AUDITEE COMMENTS




                                                                    iii
                                      INTRODUCTION

BACKGROUND

The Health Center Program

The Health Centers Consolidation Act of 1996 (P.L. No. 104–299) consolidated the Health
Center Program under Section 330 of the Public Health Service Act (PHS Act), codified at 42
U.S.C. § 254(b). Pursuant to 42 U.S.C. § 254(b), the Health Center Program is a national
program designed to provide comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health & Human Services (HHS), the Health Resources and Services
Administration (HRSA) administers grant opportunities for health centers.

The Health Center Program provides grants to nonprofit private or public entities that serve
designated medically underserved populations and areas, and vulnerable populations composed
of migrant and seasonal farm workers, the homeless, and residents of public housing. Health
centers funded by HRSA are community-based and patient-directed organizations meeting the
definition of “health center” under 42 U.S.C. § 254(b).

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, including $2 billion to expand the
Health Center Program to serve more patients, stimulate new jobs, and meet the significant
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. These appropriations included $500 million for grants to health
centers, $1.5 billion for health center construction, renovation, and equipment and for the
acquisition of health information technology systems, and $500 million to address health
professions workforce shortages. HRSA made available four types of Recovery Act grants to
health centers: new access points (NAP), increased demand for services (IDS), facilities
investment program, and capital improvement program (CIP). Recovery Act grants were
provided to both new and existing health centers; moreover, a center was permitted to receive
more than one type of grant.

Peak Vista Community Health Centers

Established in 1971, Peak Vista Community Health Centers (Peak Vista) is a private, nonprofit
organization that provides primary medical, dental, and behavioral health services through a
network of health centers to uninsured and underinsured people in Colorado. Peak Vista
has 16 health centers at 12 locations in El Paso and Teller counties, including clinics for
pediatrics, women’s health, family practice, after-hours immediate care, senior health and
homeless health.

On December 18, 2007, Peak Vista applied for Recovery Act NAP grant funding in the amount
of $1,300,000. According to Peak Vista’s NAP grant application, the funding would be used to
create a Mobile Family Care Clinic that would enable Peak Vista to serve 4,000 new patients.



                                               1
On February 26, 2009, HRSA awarded Peak Vista a Recovery Act NAP grant in the amount of
$1,300,000.

On March 16, 2009, Peak Vista applied for Recovery Act IDS grant funding in the amount of
$776,173 to hire ten full-time employees (FTE). According to Peak Vista’s IDS grant
application, the funding would enable Peak Vista to serve 371 new uninsured patients. On
March 27, 2009, Peak Vista was awarded a Recovery Act IDS grant in the amount of $776,173.

On June 2, 2009, Peak Vista applied for Recovery Act CIP grant funding in the amount of
$1,880,475. According to Peak Vista’s CIP grant application, the funding would enable Peak
Vista to (1) repair the Family Health Center roof and parking; (2) upgrade information
technology infrastructure and computer equipment and improve electronic health care records
capacity; and (3) renovate the Administrative Center, which would allow some administrative
staff to be moved to a new location. On June 25, 2009, Peak Vista was awarded a three-project
Recovery Act CIP grant in the amount of $1,880,475.

Requirements for Federal Grantees

Nonprofit organizations that receive HRSA funds must comply with Federal cost principles
found at 2 CFR pt. 230, Cost Principles for Non-Profit Organizations (formerly Office of
Management and Budget (OMB) Circular A-122). In addition, 42 U.S.C. § 254(b) defines
requirements for health centers under the Health Center Program.

The Standards for Financial Management Systems, found at 45 CFR § 74.21, establish
regulations for grantees to maintain financial management systems. Grantees’ financial
management systems must provide for accurate, current, and complete disclosure of the financial
results of each HHS-sponsored project or program (45 CFR § 74.21(b)(1)); must ensure that
accounting records are supported by source documentation (§ 74.21(b)(7)); and must provide
effective control over and accountability of all funds, property, and other assets so that recipients
adequately safeguard all such assets and assure they are used solely for authorized purposes
(§ 74.21(b)(3)). Grantees also must have written procedures for determining the reasonableness,
allocability, and allowability of costs in accordance with the provisions of the applicable Federal
cost principles and the terms and conditions of the award (§ 74.21(b)(6)).

Furthermore, 2 CFR pt. 215, Uniform Administrative Requirements for Grants and Agreements
with Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations (formerly
OMB Circular A-110), § 215.21(b), requires that a grant recipient’s financial management
system include written procedures for determining the reasonableness, allocability, and
allowability of costs in accordance with the provisions of the applicable Federal cost principles
and the terms and conditions of the Federal award. This Federal regulation also requires that
grant recipients adequately safeguard all funds, property, and other assets and assure that they are
used solely for authorized purposes.




                                                  2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess Peak Vista’s financial viability, capacity to manage and account for
Federal funds, and capability to operate a community health center in accordance with Federal
regulations.

Scope

We conducted a limited review of Peak Vista’s financial viability, financial management system,
and related policies and procedures. Therefore, we did not perform an overall assessment of
Peak Vista’s internal control structure. Rather, we performed limited tests and other auditing
procedures on Peak Vista’s financial management system to assess its ability to administer
federally funded projects.

We performed our fieldwork at Peak Vista’s administrative office in Colorado Springs,
Colorado, in January and February 2010.

Methodology

To accomplish our objective, we:

   •    reviewed relevant Federal laws, regulations, and guidance, to include HRSA program and
        policy announcements;

   •    obtained and reviewed Peak Vista’s HRSA grant application packages and supporting
        documentation;

   •    interviewed Peak Vista personnel to gain an understanding of its accounting systems and
        internal controls;

   •    reviewed Peak Vista’s audited financial statements, IRS Forms 990, and supporting
        documentation for the period January 1, 2006, through December 31, 2008;

   •    performed ratio analyses of Peak Vista’s financial statements;

   •    evaluated Peak Vista’s fiscal procedures related to accounting documentation and
        preparation of financial reports;

   •    evaluated Peak Vista’s current program operations;

   •    reviewed Peak Vista’s administrative procedures related to personnel, record-keeping,
        conflict resolution, and other non-financial matters;



                                                3
   •   reviewed minutes from Peak Vista’s Board of Directors meetings; and

   •   provided a summary of our findings to Peak Vista’s management on
       January 29, 2010.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                           FINDINGS AND RECOMMENDATION

Based on our assessment, we believe Peak Vista is financially viable, has the capacity to manage
and account for Federal funds, and is capable of operating its health center in accordance with
Federal regulations. However, we identified several weaknesses in Peak Vista’s financial
management: NAP funds used for services at unauthorized service sites; funds draw-downs not
matching financial system information; payroll costs based on estimates; inadequate segregation
of Recovery Act funds in the accounting system; lack of required supporting documentation for
salaries; lack of existing formal policies and procedures; and lack of required personnel data.

WEAKNESSES IN FINANCIAL MANAGEMENT

New Access Point Funds Used For Services at Unauthorized Service Sites

Pursuant to the HHS HRSA New Access Points Application Guide (the Guide) 08-077, page 11:
“A SATELLITE applicant is an organization that CURRENTLY RECEIVES grant support
under the Health Center Program authorized under section 330 of the PHS Act. All satellite
applicants must propose to establish a new access point(s) to serve a new patient population that
is outside the applicant’s approved scope of project ….” (Emphasis in original.)

The Guide further stipulates that satellite applicants may not request funding to support the
expansion or addition of services, programs, and/or staff at a site(s) that is currently listed as
being a part of the applicants’ approved scope of project under the Consolidated Health Center
Program.

Contrary to these Federal guidelines, Peak Vista used NAP funds for services provided at sites
not authorized in the Notice of Grant Award (NOGA) terms and conditions. The NOGA listed
the approved NAP as the Mobile Care Clinic. However, the majority of the sites where services
were provided (using NAP funds) were other, existing sites operated by Peak Vista. Peak Vista
used a predetermined physician salary allocation for NAP expenditures rather than an allocation
based on new patient population.

Of the $527,612 charged to the NAP grant during the period March 2009 through
December 2009, $212,995 had been expended for services provided at the site authorized in the
NAP grant agreement, the Mobile Care Clinic. The remaining $314,617 had been expended for

                                                 4
services provided at sites that were not authorized in the NAP grant agreement and that did not
meet the definition of a NAP as stated in the Guide.

Even if NAP funds were allowable for providing services to NAP patients at sites other than the
Mobile Care Facility, we could not determine from the accounting system information whether
these funds were actually being used to treat NAP patients.

Recovery Act Funds Draw-Downs Not Matching Financial System Information

Pursuant to 45 CFR § 74.21, grantees must maintain accounting records that are supported by
source documentation and must maintain financial systems that provide for accurate and
complete reporting of grant-related financial data.

Peak Vista created tracking sheets to tabulate the salary and benefit costs for NAP and IDS
employees and consequently to draw down grant funding. However, these tracking sheets did
not accurately report grant-related financial data when compared to Peak Vista’s accounting
records for these employees; thus, this procedure did not conform to the provisions of 45 CFR
§ 74.21.

Peak Vista’s NAP tracking documentation showed that from March to December 2009, NAP
employees received salaries totaling $651,461. However, the accounting system showed that
total salaries paid to those NAP employees for that time period were $631,261, a difference of
$20,200.

Similarly, Peak Vista’s IDS tracking documentation showed that from April to December 2009,
IDS employees received salaries totaling $501,040. However, the accounting system showed
that total salaries paid to those IDS employees for that time period were $495,106, a difference
of $5,933.

An inability to provide effective control over and accountability of all funds, property, and other
assets can result in inadequate safeguarding of assets and inadequate assurance that those funds
are used solely for authorized purposes.

Payroll Costs Based On Estimates

Pursuant to 2 CFR pt. 230, Appendix B, §§ (8)(m)(1) and (8)(m)(2)(a), the distribution of
salaries and wages to awards must be supported by personnel activity reports. The reports must
reflect an after-the-fact determination of the actual activity of each employee. Budget estimates
(i.e., estimates determined before the services are performed) do not qualify as support for
charges to awards.

Contrary to these Federal requirements, Peak Vista calculated NAP and IDS payroll costs on the
basis of budget estimates and not on the basis of the actual time employees worked on grant-
approved activities. Specifically, in lieu of tracking the actual time Peak Vista employees




                                                 5
worked on grant-approved activities, Peak Vista multiplied each employee’s salary and benefit
cost by the pre-determined grant FTE allocation. The use of budget estimates rather than actual
costs could result in improper allocation of Recovery Act grant funding.

Inadequate Segregation of Recovery Act Funds in the Accounting System

Pursuant to 45 CFR § 74.21, grantees must maintain accounting records that are supported by
source documentation and must maintain financial systems that provide for accurate and
complete reporting of grant-related financial data.

Furthermore, 2 CFR § 215.21(b)(1) states that a grantee’s financial management system must
provide “[a]ccurate, current, and complete disclosure of the financial results of each federally-
sponsored project or program ….”

Contrary to these Federal requirements, Peak Vista’s accounting system did not adequately
accumulate and segregate costs for the NAP and IDS grants. Employee salary cost that was
charged to the NAP and IDS grants was not always assigned to a NAP or IDS sub-account code
in the financial system. Moreover, some of the salary costs for NAP and IDS employees were
recorded in non-grant-related sub-accounts. Inadequate segregation of funds could result in
delay or inability to detect accounting inaccuracies and/or misappropriation of assets by theft or
fraud.

Lack of Required Supporting Documentation for Salaries

Pursuant to 2 CFR pt. 230, Appendix B, §§ (8)(m)(1) and (8)(m)(2), charges to awards for
salaries and wages, whether treated as direct costs or indirect costs, will be based on documented
payrolls approved by a responsible official of the organization. The distribution of salaries and
wages to awards must be supported by personnel activity reports; and reports reflecting the
distribution of activity of each employee must be maintained for all staff members (professionals
and nonprofessionals) whose compensation is charged, in whole or in part, directly to awards.

From a random sample of 23 professional and nonprofessional employees, Peak Vista was
unable to furnish Provider Tracking Sheets (certification of time worked) for three employees.
The absence of these certifications indicates that Peak Vista’s salaries were not fully documented
and supported pursuant to 2 CFR pt. 230, Appendix B.

An inability to provide effective control over and accountability of all funds, property, and other
assets can result in inadequate safeguarding of assets and inadequate assurance that those funds
are used solely for authorized purposes.

Lack of Existing Formal Policies and Procedures

Pursuant to 2 CFR § 215.21(b)(3), grant recipients are required to adequately safeguard all funds,
property, and other assets and assure that they are used solely for authorized purposes. Similar
language appears in 45 CFR § 74.21(b)(3).



                                                 6
Contrary to these Federal requirements, Peak Vista did not have written policies and procedures
for the following categories at the start of our audit: cash management, miscellaneous revenues,
and journal entries. The absence of policies and procedures regarding the management and
proper use of funds, property, and other assets could result in delay or inability to detect
accounting inaccuracies and/or misappropriation of assets by theft or fraud.

Prior to completion of our audit fieldwork, Peak Vista provided the auditors with formal, written
policies and procedures for the above categories.

Lack of Required Personnel Data

Pursuant to 42 U.S.C. § 233(h)(2), health service entities are required to review and verify the
professional credentials, references, claims history, fitness, professional review organization
findings, and license status of their physicians and other licensed or certified health care
practitioners, and, where necessary, obtain permission from these individuals to gain access to
this information.

Contrary to these Federal requirements, Peak Vista did not always maintain sufficient and
current information to support placement in the position assigned. Incomplete personnel data as
to background checks, reference checks, professional credentials, and licensing status could lead
to situations in which people receive health care services from individuals who are not
authorized or accredited to perform those services.

Of 23 sampled personnel files, 3 were missing information. Two of the personnel files were
initially missing background checks and authorizations; however, Peak Vista completed the
checks and authorizations and provided the documentation to us prior to the completion of our
audit fieldwork. The third personnel file was missing an employee reference check.

RECOMMENDATION

When monitoring the Recovery Act funds, we recommend that HRSA consider the information
presented in this report in assessing Peak Vista’s ability to account for and manage Federal funds
and to operate a community health center in accordance with Federal regulations.

AUDITEE COMMENTS

In written comments on our draft report, Peak Vista disagreed with the majority of our findings.
Peak Vista provided information as to corrective actions and improvements that it has
implemented or is undertaking, as well as additional information related to some of our findings.

Peak Vista agreed with our finding regarding the inadequate segregation of Recovery Act funds
in the accounting system. Peak Vista acknowledged that its “current accounting software
package was not adequate to maintain and track the many various required categories [of costs].
To mitigate this … we put in place sets of manual spreadsheets and other processes, recognizing
that this could not be our long-term solution.” Peak Vista also described a “comprehensive
software upgrade” that it planned to implement as a long-term solution.

                                                 7
With respect to the use of NAP funds for services at unauthorized service sites, Peak Vista
disagreed with our finding and stated that it met the conditions of HRSA’s grant award regarding
the use of NAP funds. Specifically:

   •   Peak Vista acknowledged that NAP funds were used for clients treated at facilities other
       than the mobile care unit listed in Peak Vista’s NAP application, and identified two
       reasons why this use of NAP funds at its existing service sites met the grant award
       conditions. First, Peak Vista stated that it “… was at clinical capacity prior to the NAP
       award, and would not have been readily able to absorb the additional NAP patients within
       the current system.” Second, Peak Vista said that due to remote deployments, weather,
       and mechanical breakdowns, the mobile care unit was not available for NAP patients at
       all times. Peak Vista stated that for these reasons, it used existing points of service to
       provide a “… full range of required primary, preventative, enabling and supplemental
       medical health care services …” as specified in CFDA No. 93.224.

   •   In response to our statement that we could not determine whether NAP funds were
       actually being used to treat NAP patients, Peak Vista provided information on its
       interpretation of the NOGA conditions and on the methodology used by its accounting
       system to track new patients and encounters.

With respect to our finding that Peak Vista’s draw-downs of Recovery Act funds did not match
Peak Vista’s financial system information, Peak Vista stated that its funds tracking sheets were
accurate, and added that differences between its worksheets and ours applied only to the first
payroll period included after the grant start date and were not repeated thereafter.
With respect to the calculation of payroll costs on the basis of budget estimates, Peak Vista said
that it used an estimate-based methodology only on six part-time, exempt employees, and added
that all hourly employees used an automated timekeeping system to record their hours worked.

Peak Vista’s comments, excluding a two-page attachment that contained a copy of one of the
HRSA grant awards, appear as the appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

Peak Vista’s written comments provided additional information as to corrective actions and
improvements that it has implemented or is undertaking, but we did not verify the validity of the
additional information provided. Our responses to the more specific issues put forth by Peak
Vista in its written comments appear below.

With respect to the use of NAP funds for services at unauthorized service sites, we recognize the
complexity of Federal requirements and guidelines that inadvertently work at cross-purposes in
terms of the guidance they provide for the use of grant funds. In keeping, therefore, with both
our audit objective and our recommendation that HRSA consider the information presented in
this report, we offer the following points:




                                                 8
   •   The Guide states that satellite applicants may not request funding to support the
       expansion or addition of services, programs, and/or staff at a site(s) that is currently listed
       as being a part of the applicants’ approved scope of project under the Consolidated
       Health Center Program. In the case of Peak Vista, this guideline applied to all existing
       service sites other than the mobile care unit listed in Peak Vista’s NAP application.
       Although Peak Vista said that it acted in compliance with CFDA No. 93.224 by
       providing services at sites not authorized in the NOGA terms and conditions, it appeared
       that NAP funding supported an expansion of services at existing sites. We were not able
       to determine, within the constraints of this limited scope review, whether the expansion
       served an existing population or patients generated as the result of the implementation of
       the mobile care unit.

   •   We concur that Peak Vista has the capability to track new patients and encounters;
       however, Peak Vista did not use this methodology in the physician salary allocation.
       Therefore, we could not determine whether the NAP funding was actually being used to
       treat NAP patients.

With respect to our finding that Peak Vista’s draw-downs of Recovery Act funds did not match
Peak Vista’s financial system information, during our fieldwork we found variances between
payroll information in the accounting system and the tracking sheets used by Peak Vista for its
draw-downs of Recovery Act funds. The funds tracking sheets to which Peak Vista alluded in its
comments refer to worksheet revisions done while we were on site. Although Peak Vista stated
that the differences between its worksheets and ours were primarily confined to the first payroll
period included after the grant start date, we believe that the differences occurred primarily
because Peak Vista included salaries from the second pay period of April 2009 in the May 2009
salaries.

With respect to the calculation of payroll costs on the basis of budget estimates, Peak Vista
acknowledged in its written comments that it used an estimate-based methodology to calculate
salary and benefit costs for six part-time, exempt employees. However, Peak Vista’s use of an
estimate-based methodology to calculate salary and benefit costs extended beyond those six
employees. In fact, for exempt employees whose duties included work related to the grants,
Peak Vista determined in advance (based on FTE allocations specified in the HRSA-approved
grant applications) how much of each employee’s time and related salary costs would be
allocated to the grant. Exempt employees’ payroll costs were then allocated on a percentage to
the particular grant-funded program(s). This methodology, based on estimation rather than an
after-the-fact determination of the actual activity of each employee, did not allow for adequate
support of the distribution of salary and wage costs. For example, exempt providers certified the
hours worked but did not specify the department(s) in which the work occurred. Similarly,
clinical and dental schedules showed the locations where providers worked, but not the
program(s) worked.

In light of these considerations, we continue to recommend that HRSA consider the information
presented in this report, including Peak Vista’s comments, in monitoring the Recovery Act
funds.


                                                  9
APPENDIX
                                                                                                                               Page 1 of 11


                                            APPENDIX: AUDITEE COMMENTS



                                                   PROVID ING EXCE17 r10NAL HEALTHCAIlE F OR PEOPLE FACING A CCESS B AlmlEHs
                                  340 Primers Parkway ' Colorado Springs, CO      8 0910 ~3 195   • \Vww.pcakvista.org • (7 19) 632-5700



                                                                                                                     May 24. 2010




           Patrick Cogley 

           HH SjO IGjAudit Se rvices 

           601 East 12th Street. Room 0429 

           Richard Bo lling Federal Bldg. 

           Kansas City. MO 64106 


           Re: Peak Vista Community Hea lth Centers Res pon se to Draft Re port A-07 -10-02754

           Dear Mr. Cogley:

           Please find attached our response to the Office of In spector Gene ra l's draft res ults of the limi ted
           scope review of Peak Vista Community Health Ce n te rs.

           As one of the first ce nters to unde rgo th is pro cess, we appreciate the opportunity to receive 

           feedback and fee l vn lidated that th e OIG fo und that "Peak Vista is financially viable , ha s t he 

           capacity to mana ge and account for Fed era l funds, a nd is capabl e o f ope ratin g its hea lth center 

           in accordance with Federa l regu la tion s". 


           Si ncere ly,


         ~sCG 11:
           Ms. B) Scott 

           President and CEO 





     NnN,J,J 1yJ!...


h.   ACCRIlDIT.\TIO :<l ASSOCIATION 

     fo, A,\tIl U LATOR\' HIlALTII CAR t:. INC 
           Donate online at www.pc:1.k"is ta .org
                                                                                                          Page 2 of 11




   Peal< Vista Community Health Centers Response to Draft Report A-07-10-02754


From OIG Draft Report:
We conducted a limited revi ew of Peal< Vista's financial viability. financial management system, and
related policies and procedures. Therefore, we did not perform an overall assessment ofPeal< Vista's
internal control structure. Rather, we performe d limited tests and oth er auditing procedures on
Peal< Vista's financial management system to assess its ability to administer federally funded
projects.

We performed ollr fieldwork at Pea l< Vista's a dmini s trative office in Colorado Springs, Colorado, in
January and February 2010.

Peak Vista's Cla ri fication of Tim cli ne and Process:
Peak Vista was contacted in December 2009 and asked if December 2009 or Ja nu ary 20 10 would be best for
the DIG field wo rk. At that time, Peak Vista con firm ed that the fie ld work coul d take place the week of
Dece mb er 14, 2009. Ho wever, due to OIG scheduling conn icts, the field work was scheduled fo r January
20 10. The ori gina l fi eld work was completed by the four OIG staff over the tim e period of Monday, January
25,201 0 through Friday, Janu ary 29, 20 10. On Frid ay, the exi t interview was co nducted and we were
advised V'le would recei ve the summa ry OARS report approx im a tely 5 days. Peak Vista was then contacted
by the DIG on February 10, 20 10, and told not a ll fie ld work was completed. Two of the DIG au ditors \·v ere
on site at Peak Vista agai n February 1 2, 201 0 for one day. At that time, Peak Vista was told aga in that a
summa ry report would be sent in approximate ly five days, with the draft report to fattow. The summary
OARS \-\'as subsequen tly rece ived on March 25, 2010. An electronic co py of the draft report was received on
May 18, 20 10 and the hard copy was received on May 19 1h , 20 10.

Given th e lapse of time between the field work and th e draft re port, Peak Vista was a ble to put new
processes in place for the identified weakn esses.

From OIG Draft Report:
New Access Point Funds Used For Services at Unauthorjzed Service Sites
      Pursuant to the HHS HRSA New Access Points Application Guide (the Guide) 08-077, page 11:
     "A SATELLITE applicant is an organization that CURRENTLY RECEIVES grant support under
      the Health Center Program authorized under section 330 of the PHS Act. All satellite
      applicants mllst propose to establish a new access point(s) to serve a new patient population
      that is outside the applicant's approved sco pe of project ..."

       The Guide further stipulates that satellite applicants may not requ es t funding to support the
       expansion or addition of services, programs, and/or staff at a site(s) that is cUlTently listed as
       being a part of the applicants' approved scope of project under the Consolidated Health
       Center Program.

       Contrary to these Federal guidelines, Peal{ Vista used NAP funds for services provide d at sites
       not authorized in the Notice of Grant Award (NOGA) terms and conditions. The NOGA listed
       the approved NAP as the Mobile Care Clinic. However, the majority of the sites where services
       were provided (using NAP funds) wel'e other, exist ing sites operated by Peal{ Vista. Peak Vista
       used a predetermined physician salal'y a ll ocation for NAP expenditures rather than an
       all ocation based on new patient population .
                                                                                                                  2
                                                                                                Page 3 of 11




Of the $527,612 cha rge d to th e NAP grant during the pe riod March 2009 through December
2009, $212,995 had bee n expended for services provided at the site 3 uthodzed in the NAP
grant agreement, the Mobil e Care Clinic. The r emai ning $314,617 had been expended for
services provided at sites that w e r e not a uthorized in the NAP grant agreeme nt and that did
not me et the definition of a NAP as stated in the Guide.

EVe n if NAP funds were a ll owable for providing services to NAP pa ti e nts a t s ites other th a n the
Mobile Ca r e Facili ty, we could not determine from the acco un t ing syste m information
wh e ther these funds were actually being lI sed to treat NAP patients.

Peak Vista Response:
Peak Vista disagrees with t his findin g as we met Notice of Grant Award conditions per H RSA's notice
dated 12/23/2009.

First it must be noted that Peak Vista's Mobile Care Facility New Access Point a ppli cation was
o rig inal ly sub mitted in Dece mb er 2007 through the norma l l-IR SA site expansion process. In
September 2008 we rece ived notice that the NAP app lica tion had not been funded. In rebruary 2009
we received notifi cat ion that the Mobile Care Faci li ty NAP application had been picked up for funding
through the new ARRA NAP process. Between Septem ber 2008 and rebruary 2009, we implemented
a leaner model of mobile care w ithout additional Federa l Fund s. Changes to our model were
communicated to HRSA when the ARRA NAP was funded and all conditions related to this st rategy
were released by HRSA with the NOGA dated 1 2/23/2009 (NOGA is attached as Attachment A) .

Per the eFDA No 93.224, the d efin ition of a new access point is a new service site for the provision of
comprehens ive primary and preventive health care services. It furt her states that all new access
point ap pli cat ions a re expected to:
       a) Demonstrate that all persons will have ready access to the rull mnge orreal/ired primary
            preventive enab linG and supplemental medical health ca re service'> such as oral health care,
            mental health care and substance abuse serv ices, either directly olJ -site Dr through
            estahlished arrang ement> without regard to abi lity to pay.

Peak Vista interpreted this statement to illean that we were required to provide the full range of
required services either on the mobile van or through othe r means. The unique illobile care model,
by its ve ry nature, requires referrals t hrough other arrangemen ts to ass ure that access to the full
scope of services is available in a time ly, consistent manner.

A good example of this unique model follows: The mobile van was used to provide dental care for
two weeks in a small rural town located in the motlntains. Because of distance and challenging
mountainous driving, the van was taken there, set up, and remained there for a total of 14 days. This
community had never received stich an opportunity an d during the patient visits the dentist and
dental hygienist found that many of the users had go ne years w ithout any dental care, even though
they were in desperate need. The good news is t ha t 168 pat ients rece ived preventat ive and
restorative dental care. Peak Vista would not have been able to offer this without the NAP grant
funding and all the opportunities and re lationships that have come with the mobi le van. Thi s
particular community actually installed permanent shore power to allow future visits by the mobile
van.


                                                                                                          3
                                                                                                 Page 4 of 11




During the mob il e van's remote deployments, Peak Vista still needs to assure that other new NAP
users conti nue to have access to care when the vehicle is not ava il able to them. It would not be
reasonable to ask patients to find transportation and travel to be seen on t he mobile van in such a
remote area or to wait until the van returns to a closer location. It is also impo rtant for the patients
to have access to care at the time the care is needed. The best way for Peak Vista to assure th is is to
provide access at OUf existing clinics, utilizing NAP funded providers, who are not on the van at the
time, to see these new NAP patients.

Peak Vista was at clinica l capacity prio r to the NAP award, and wou ld not have been readily able to
absorb the additional NAP patients w ithin the current system. Peak Vista measures cl inical capacity
severa l ways. First, we practice a hea lth care home model, which means each patient is assigned to a
primary care provider (PCP). We st rive for that patient to see t heir PCP, but if that is not possible for
any reason, we work to assure an alternative provider is available. At the time of the NAP award, all
proVider panels were at capacity. Second, we measure encounte rs per provid er per year. Per the
2008 UDS report, PV's medical teams were averag in g 4629 encounters per team, which is well above
the BPHC standa rd of 4200 per medical team.

In keeping with our interpretation of the NAP requirement to provid e "ready access to the full range
ofrequired primary, preventive, enabling and supplemental medical health care services, either directly
on-site or through established arrangements" (NRSA 08-077), we exercised the option of providing the
care both directly on-site, and through a referral process to other sites, pri marily in t he fo r m of
behavioral health services and pri mary medical ca re when the mobile van was deployed in the field.
Limited space and the abi li ty to provide services in far-reaching locations are unique aspects of the
mobile care model.

Also unique to mobile care is a dependence on the weather for deployment. In the first 14 mo nths of 

operations, Peak Vista frequently had to deal with harsh Co lorado w inter weather conditions. On 

numerous occasions, the mob ile van was forced to remain docked due to snow, ice and w ind making 

the roads impassable. Again, on those days, mobile van staff was relocated to other sites and patients 

were notified they could be seen at an a lternative location. As always, access to quality care was the 

priority. 


Finally, the mobile van is a vehicle, and is therefore subjec t to breakdown. Our early deployments 

were marked by a great deal of difficulty w ith our generator and other mechanical features. 

Apparently this is common to new mobi le van start up, and the repair services were covered by our 

warranty. But again, under these circumstances mobile staff was relocated and patients were 

rescheduled from the mobile van to the clini cs so the NAP patients could stil l have access . 


When designing the NAP mobile van program, the patient was always the prio rity focus. Peak Vista 

has worked to assure the new patients se rved under the NA P grant have access to all HRSA required 

services in a reasonable time period, and that quality and patient safety are always paramount. 


From OIG Draft Report: 

In "egards to the report" ... we could not d e te rmine from the a ccounting system information 

whether th es e funds were actu a lly being use d to treat NAP patients". 


Peak Vista Response: 

Peak Vista used the following method, with data gathered from ollr automated patie nt management 

system, to count new patients and number of encounters for the NAP grant: 

                                                                                                            4
                                                                                                          Page 5 of 11




              1. 	 Users were on ly counted if they had never been seen at Peak Vista.
              2. 	 Only Ilew users t hat were seen by providers be in g paid by NAP dollars we re counted.
              3. 	 Eac h USCI' had to have a face to face enco unte r th at was documented in the hea lth record,
                   for a cli ni ca l vis it t hat required independent judgment by a li censed provider.
              4. Only encounte rs provided to identified NA P users are co unted toward NA P encounter rate .
      Peak Vis ta has provided this information on th e HCQR health center qua rte rly repo rts and can be
      documented in detai l. To date, the NAP grant has a ll owed 3618 patie nts, or 90% of Olll" target access
      to care.

      From OIG Draft Report: 

      "On December 10, 2 007, Peal< Vista applied for Recovery Act NAP grant funding in the a mount 

      0[$1,300,000, According to Pea l< Vista's NAP grantapplicatioll, the funding would be used to 

      create a Mobile Family Care Clinic that would enable Pea l< Vista to serve 4,000 new patients," 


      Peak Vista Response: 

      To cla ri Fy, Peak Vista stated 4,000 as a year 3 goal in the orig in al NAP application. Peak Vista stated 

      3,225 as a 2 year goa l a nd ARRA NAP is only 2-yea r fu nding. 


From DIG Draft Report :
Recove ry Act Funds Draw-Downs Not Matching Financial System information
      Pursuant to 45 CFR § 74,21, grantees must mainta in acc ounting I'ecords that are supported by
      source documentation a nd must m a intain financial systems that provide For accurate and
      complete r e porting of grant- r ei a ted financial data ,

      Pcal< Vista created tracJdng sheets to tabulate the sa lary a nd ben e fit costs For NAP and IDS
      employees a nd co nseq uently to draw down grant funding, Howeve r', th ese tr'acldng s h ee ts did
      not accurately re port grant-related financial da ta when compared to Pea l< Vista's accounting
      r eco rds for th ese employees; thus, this procedure d id not conform to the provis ions of 45 CFR
      § 74.21.

      Peak Vista Response :
      Peak Vista disagrees with this Finding.
      Th e employee data was accurately reported on the tracking sheets. Th e difFerence bel'ween Peak
      Vista's worksheet and the DIG works heet is due to consideratio n of what data is appropriate to
      include. Also, t he drawdown amounts were always less than the tota l amo unts represented on the
      worksheets, because Peak Vista is maintaining a process whereby the Funds are drawn down on a
      level basis over the 2 yea r period of the gra nts to assure sllstainab ility o Fth e grant Funded projects.

      From OIG Draft Report:
      Peall; Vista's NAP tra cldng documentatio n showed that from Mal'cll to De cemuer 2 009, NAP
      employees received salaries totaling $651,461, However, the acco unting syste m showed that
      total salaries pa id to those NAP employees for that time period were $631,261, a difference of
      $20,2 00.

      Peak Vista Respo nse:
      Peak Vista disagrees with t hi s finding.
      The Peak Vista worl<s he et tota lin g $65 1,46 1 recorded wages paid to NAP gra nt em pl oyees a fte r t he
      grant start date of March 1, 2009 in clud ed a payroll paid on March 6 th . This payroll oFS15.7 16
      included wages earned in Feb ruary prior to t he NAP grant start date, While the auditors were 011
                                                                                                                     5
                                                                                                            Page 6 of 11




      s ite, we revised the worksheet to exclud e this payrol l. Th e Pea l< Vi sta worksheet al so includ ed
      $1,677 to a contract provider who provided behavioral health se rvi ces, as al lowed for in the grant.
      The OIG worksheet did not includ e this paym e nt a nd al so excluded other payments of $2,80 7 as
      un allowab le. Going fo rwa rd , we will continu e to accurately reco rd t he e mp loyee inform a tion on the
      tracking worksheets a nd review the data to remove a ny payments not allowab le under the ARRA
      grant. The issue regarding the fi rst pay roll afte r the grant sta rt date wa s on ly applicable at the
      beg inning of the g rant per iod and wa s not re peated.

      From DIG Draft Re port: 

      Similarly, Peak Vista's IDS tracking do clim en tation s howed that fro m April to December 2009, 

      IDS employees received salaries totaling $5 01,040. Howe ver, the acco unting system s howed 

      that total salaries pa id to those IDS employees fol' that time pe riod were $495,1 06, a 

      difference of $5,933. 


      Peak Vista Res ponse: 

      Peak Vi sta disagrees with this finding. 

      The Peak Vis ta worksheet totalin g $501,040 recorded wages paid to l...!2.S....ru: employees after the
      grant sta rt date of March 27, 2009, in cluding a payro ll paid on April 3 rd. This payroll of $5,933 was
      for wages earned in March. Agai n, we revi sed the worksheet to excl ude th is pay rot! whi le the
      auditors were on site. Goin g forward, we wil l co ntinue to acc urately re co rd the emp loyee
      information on the tracking worksheets. Th e iss ue rega rd ing the first payroll afte r the grant sta rt
      date was only appl ica ble at the begi nnin g of the grant period and was not repeated.

From OIG Draft Repo rt:
Payroll Costs Based On Estimates
      Pursu a nt to 2 em pt. 230, Appendix 8, §§ (B)(m)(l) a nd (B)(m)(2)(a), the distribution of
      salaries and wages to awards mu st be supported by pe rso nnel ac tivity reports. The r eports
      must reflect an after-the-fact determination of the ac tu a l activity of each e mployee. Budget
      es timates (i.e., es timates determined before the serv ices are perform ed) do not qualify as
      support for charges to awards.

      Contrary to these Federal requirements, Peak Vista ca lculate d NAP a nd IDS payro ll costs o n
      the basis ofbudget es timates a nd not o n th e bas is of th e actua l time em ployees wori<ed o n
      grant-approved activities. Specifically, in li e u of tracking th e ac tu a l time Pea l<Vi sta e mployees
      worked on grant-approved activities, Peak Vista multiplied each e mployee's sala ry a nd
      benefit cost by th e pre-dete rmined gr a nt PTE a ll ocation. The lise of bud ge t es timate s rather
      than actual costs could result in improper allocation of Recovery Act g r a nt funding.

      Peak Vista Response:
      Peak Vista disagrees with th e blanket nature of this finding, as a n estimate-based methodology was
      utilized only on 6 part-ti me. exempt employees, acco unting for less th an 5% of gra nt funded FTE's.
      Peak Vista did not multiply each empl oyee's payro ll info r mation by th e pre -dete rmin ed gran t FTE
      alloca ti on. Th ere are four categories of employees: Full- time hou rly (non-exempt) empl oyees, part­
      time non -exem pt employees, full-t ime profess ional (exempt) employees, and part-time exe mpt
      employees.

      All hourly employees use an automated time keeping system to record the ir worked hours. Th is
      system is used to calculate their wages. If either a ful l- time or pa rt-t ime hourly e mpl oyee works

                                                                                                                      6
                                                                                                        Page 7 of 11




      more hours than allowed for in the grant budget, the n the ho urs expe nsed to the budget are limited
      to the FTE presc ribed in the grant budget.

      All professional employees re po rted their payroll infor mat ion on a man ua l t im es heet. lf the hours
      reported were greater than all owed for in the gran t budget, then the hours expensed to the budget
      were limited to th e FTE prescribed in the g rant bu dget.

From DIG Draft Report:
Inadeq uate Segregation of Recovery Act Funds in the Accounting System
      Pursuant to 45 CFR § 74.21, grantees must maintain accounting reco rds that are supported by
      source documentation and must maintain financial systems that l>rovidc for accurate and
      complete reporting of grant-related financial data.

      Furthermore,2 CFR § 21S.21(b)(1) states that a grantee's financial management system mu st
      provide "accurate, current, and complete disclosure of the financial results of each federally­
      sponsored project or program .... "

      Contrary to these Federal requirements, Peak Vista's accounting syste m did not adequately
      accum ulate and segregate costs for the NAP and IDS grants. Employee salary cost that was
      charged to the NAP and IDS grants was not always assig ne d to a NAP or IDS su b-account code
      in the financial sys te m. Moreover, so me of the sa lary costs for NAP and IDS emp loyees were
      recorded in non-grant-related sub-accounts. Inad equate seg r egation of funds could result in
      delay or inability to detect accollnting inaccuracies and / or misappropriation of assets by theft
      or fraud.

      Peak Vista Response:
      Peak Vista agrees with t hi s state ment and has initiated corrective processes.
      Prior to the field work, Peak Vista recognized that the complexity of our programming was increasing
      and that our current accounting software package was not adequate to maintain and track the many
      va rious req uired categories. To mitigate this in t he short te rm, we pu t in pl ace sets of manllal
      spreadsheets and other processes, recognizing t hat this co uld not be ou r long-term sol ut ion. We had
      planned and schedu led a comprehensive software upgrade for second quarter 2010, to allow us to
      com plete our year-end processes (fi scal year end close o ut, W-2 generation, annual audit in
      February) and to host the DIG audit.

      Th e objective of the System Upgrade is to improve the accuracy a nd timely fina ncial reporting to all
      stakeholders at Peak Vista Commu nity Health Centers (PVCHC). As the General Ledger, Accounts
      Payable, Pay rol l, Hum a n Resource and Purchase Order software is bei ng upgraded, process,
      procedure and internal control fUllctions are being reviewed, updated and tested prior to the
      conve rsion to the new software version.

      This upgrade w ill be accomplis h ed in 2 Ph ases.

      Phase 1 of the Upgrade includes:
         • 	 Updating the system to a version that will be full y supported by Microsoft. Thi s w ill assure
             compliance with data recove ry poli cies.
         • 	 Sing le User Sig n-on a llows for passwords to be properly rnan (lged with parameters and
             expiration of passwords.

                                                                                                                   7
                                                                                                     Page 8 of 11




         • 	 Phase 1 will also includ e a full review of process and procedure including documentation of
              the system and how it is being lItili zed by Finance Department, Material Management
              Depa rtment a nd I-[tl man Resource (1-1 R) Department. Review and update of these praced u res
              <mel internal contro l function, a llows for the enhancements to be documented and made in
              Phase 2.

      Phase 2 of the Upgrade includes:
         • 	 Custom Reports have been identified in the a reas of HR and Finance Department that will be
             built to help bring efficiency and consistency to several processes.
         • 	 Reconciliation of the General Ledger to the so u rce of posting. A report will be set up that can
              be ran frequently to determine sub·systct1lS (Accounts Payable, Purchasing, Cash, and Payroll)
              are being reconciled to GL.
         •	   GAAP compliance is being maintained through the system processes to help support manual
              process currently being done. This would include additional au tomation of the Purchase
              Receiving fu nction and in the Cash Management func tion.
         •	   Fu ll integration with the Purchase Order System to the General Ledger will be done.
         •	   Integration of the Fi xed Asset System will be accomplis hed through an Import function to the
              Sage System.
         •	   Im provement of the Cash Management process including recognition of long term and short
              term cash now needs.
         •	   Enhancement to Dual Controls to both Gene ral Ledger and Sub-system postings between
              depa rtlll en ts.
         •	   Improved efficiency a nd consistency when reporting to others on Peak Vista Community
              Hea lth Cente rs Financial State ments and Grant/Contract Reco nciliation.

      Th e resu lts of this upgrade w ill meet the objective and set Peak Vista Community Hea lth Cente rs up
      to manage growth of the grant processes and assure com pliance with segregation and reporting
      requiremen ts. The effici ency recogn iz ed month not requiring multiple reclassifications of
      transactions wi ll bri ng both e nhanced contro l and report ing of the financial state ments prod uced.

From DIG Draft Re port:
Lack of Required Sunportin!,! Docum e nta tion for Salaries
      Pursllant to 2 CFR pt. 230, Appendix B, §§ (8)(m)(1) and (8) (m)(2), charges to awards for
      salar ies and wages, whether trea ted as direc t costs or indirect costs, will he based on
      documented payrolls approved by a respon si ble official of the organization. The distributi o n
      of salaries and wages to awards mu st be s uppor ted by personnel activity reportsj and reports
      re fl ec ting the distribution of ac tivity of each empl oyee must be ma intaine d for all staff
      members (profess iona ls and nonprofess ionals) whose compensation is charged, in whole or
      in part, di rectly to a wa rds.

      From a random sam ple of2 3 professio na l a nd nonprofessio na l e mploye es, Peak Vista was
      unable to furnish Provider Track ing Sheets (certification of time worked) for three
      employees. The abse nce of the se certifications indicates tha t Peai{ Vista's salaries were not
      fully documented a nd s upp orted pursuant to 2 eFR pt. 23 0. Appendix 8.

      An inability to provi de e ffec ti ve control over and accountability of a ll funds , pro perty, a nd
      o ther assets can result in inadequate safeguarding of assets a nd inadequate assurance that
      tho se funds are used solely for a uthorized purposes.

                                                                                                              8
                                                                                                        Page 9 of 11




       Peak Vista Response: 

       Peak Vista agrees with this statement a nd has implemented corrective processes. 

       As noted previollsly, Peak Vista mai ntains four categories of e mployees: pu ll- time hourly (non­

       exempt) employees, part-time non-exempt employees, fuJI-time professiona l (exempt) emp loyees, 

       and part-time exempt employees.

       All hourly employees lise an automated time keeping system to record their worked hours. This
       system is used to calculate the ir wages and can be lIsed to track work location by department code.

       Prior to OIG field work, all profeSSional employees reported their payroll information on a manllal
       system consisting of indiv idua l timesheets. For providers (physicians. physician assistants, advanced
       nurse practitioners, certified nurse mid-wives, dentists, hygienist, psychologists, and behavioral
       health counselors), that manual sheet was then compa red to the patient appo intment schedule by
       location and program, and any discrepancies were investigated and reso lved. If that sheet was
       missing, provider time was verified by generating an appointment schedule by provider code to
       validate time worked.

       Since the field work, we have implemented a process whereby each provider's time is tracJ<ed daily
       through the automated timekeeping system that had previously been used only by the hourly and
       admin istrative staff. This allows us to monitor and review provider time on a real time basis. In
       add ition, the automated system allows tracking of time by work location and program.

From DIG Dra ft Report:
La ck of Existing Formal Policies a nd Procedures
       Pursuant to 2 CFR § 215.21(b)(3) , grant r eci pi ents aJ'e r e quired to a d e qu ate ly safeguard all
       funds, property, a nd other assets a nd ass ure that they are us ed so lely fo r authorized
       purposes. Simila r language appears in 45 eFR § 74.Z1(b)(3).

       Co ntrary to th ese Federal re quirem e nts, Peal{ Vista did not have written poliCies and 

       procedures for the followin g categories a t th e s ta rt of our audit: cash management, 

       miscellaneous r eve nues, and journa l entries. The a bsence of poliCies a nd procedures 

       regarding the ma nagement a nd proper use offunds, prop erty, and other assets co uld res ult in 

       delay or inability to de tect accounting inaccuracies a nd /or misappropriation of assets by theft 

       or fraud. 


       Prior to co mpletion of our audit fieldworl{, Peak Vista provid ed the a uditors with formal, 

       written policies and procedures fol' the a bove categories. 


       Peak Vista Response: 

       Peak Vista disagrees with this find in g as we thoroug hly document procedures for safe-guarding 

       funds, property and other assets. 

       Neither 2 CFR § 215.21(b)(3) nor 45 CFR § 74.21 (b)(3) reference that written poliCies and 

       procedures need to be maintained. As stated above. we are "required to adequQtely safeguard all 

      funds, property, and other assets and assure that they are IIsed so/ely for authorized purposes". This
      language does not specify the exact mechanism for "safe-guarding funds assets".

       Peak Vista safe-guards funds, property and other assets through detailed instruction manuals,
       department-specific policy documents, and th rough formalized Policy and Procedures (P&P)
                                                                                                                 9
                                                                                                         Page 10 of 11




      documents. Most of the poli cies id e ntified above represe nt dep artme nt-specifk docum e nts or
      training manuals. However, as noted in the above comm ents from OIG, we did seek to comply with
      OIG expectatio ns by forma li zi ng seve ral of the policies in question during th ei r field wo rk. The Cash
      Management po li cy in ques tion has always been a forma l P&P, a nd is thus subject to our formal
      review process.

      As part of QlIf on -going quality ass urance process, each P&P is revi ewed, and updated as necessary,
      on its anniversary date to assu re accuracy and comp li ance. If changes are requi red in the interim,
      those a re codified a nd the a nni ve rsary is updated. The cash policy was und ergoing thi s review
      process at the time of ollr OIG aud it and was co mpl ete d during the field work peri od. Thi s timing
      a pparently gave the aud itors the impression that the po licy was just being created.

      To meet the s piri t of OIG's reco mm e ndation s, Peak Vista is no w reviewing our criteria for
      determining whi ch policies require formalization versus inclu s ion in departmental training manuals
      an d/o r policies. All P&Ps will contin ue to receive annual review to assure max imum co ntrol a nd
      co m pliance.

From OIG Draft Report:
Laclt of Required Personn e l Data
       Pursuant to 42 U.S.c. § 233(h)(2), health service entities are required to review and verify the
       profession a l credentials, references, claims history, fitness, professional review organization
       findings, and license status of their physicians and other licensed 01' certified health care
       practitioners, and, where necessary, obtain permiSSion from these individuals to gain access
       to this information.

      Contrary to these Federal requirements, Peak Vista did not always maintain sufficient and 

      current information to support placement in the pOSition assigned. Incomplete personnel 

      data as to bacltground checlts, r e ference checl{s, profession a l credentials, and licensing status 

      could lea d to situations in which p eo ple receive health care services from individuals who are 

      not authorized or accredited to perform those services. 


      Of 23 sampled personnel files, 3 were missing information. Two of the personnel files were 

      initially missing bacltground checits and authorizations; however, Pealt Vista completed the 

      checl<:s and authorizations and provided the documentation to us prior to the completion of 

      our audit fieldwork The third personnel file was missing an employee reference check 


      Peak Vista Res ponse: 

      Pea k Vista cha ll enge's the above state me nt. Peak Vista routinely co nducts crimina l backg round 

      checks on in-coming staff a nd in co njunction with our provider cred e nti al i ng process. 


      The following documents a re completed or cop ied through our routine cre cienti a ling pro cess: 

      Application for AppOintmen t                     Profess ion a l Diploma
      Nationa l Pr ov id e r ldentiri cation           CPR certification (ifapplicabJc)
      Curri culum Vitae/Resume                         Current Ma lpractice In surance
      Continuing Med ical Education Credits            Health Status Questionnaire
      Colorado Application For m                       License and ex piration date
      Board Certification (copy of certificate)        DEA Certificate and ex pira tion date,
      Continuing education documents                  Authorization for Release of In formation

                                                                                                                  10
                                                                                               Page 11 of 11




Further validation is sought through primary source verification:
National Practitione r Data Bank                     Office of Inspector General Database
State License program                                Excluded Parties List System
Specialty Training (Residency/Fe llowship)           Board Certificat ion
3 Peer References                                    Verification of diploma from the University
Privileges request verified (scope and training) Background checl<
Program Oi rector (if attended ReS idency < 5 yrs) Depart ment Chair (for all Hospital appointments)
Hospital Affiliations (Date of Affiliation, Status, Dept)

What became appa rent to liS through the audit process, however, is the need to more consistently
cross reference documentation between employee files in I-Iuman Resources and the final
CrecientiaJing Packets.

As stated above, three of the 23 files audited lacked data. Of t he three cases cited, two were
physicians. During the course of field wo r k, we did perform the necessary back ground checks to
assure compliance of these records. Upon subsequent internal audit ing, we d iscovered that the
Provider Credentialing packets included the criminal back ground reports, but that these were not
referenced in the Employee Records maintained in '·hunan Resources. We have now implemented a
rOlltine internal auditing process to assure that a ll Employee files contain complete cross references
as necessary.

The third incomplete fi le was missing professional reference check reporting. The emp loyee had
been with PcaJ< Vista fo r ove r 10 years. Wh il e the pe rsonal reference checks were performed, the
professiona l reference requirement was waived at the t ime because t he employee was the wife of a
mi litary person and had spent the previous 15 years raising children and therefore lacked current
profess iona l refeJ'ences. Because we had no process at the time to document this, it was not included
in her file. This information was gathered in subsequent conversations with her manager at the time.

A process has now been implemented to assure that if for any reason reference checks are not
completed, this wi ll be doc u mented in the employee's fi le as well as any alternative reference
p rocesses used instead.

In summary, PeaJ< Vista notes that it was ult imate ly found to be finanCially viable as sta ted in the
OIG's draft resu lts of the lim ited scope review, "Based on our assessment, we believe Peak Vista is
finanCial ly viab le, has the capacity to manage and account for Federal funds, and is capab le of
operating its health center in accordance with Federal regu lations." The exceptions found in our
processes have been addressed and we will continue to improve our compliance and internal
auditing p rocesses going fo r ward.




                                                                                                          11
